TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Taxpayer Service Savings Estimates for
                   Fiscal Years 2006 and 2007 Could Not Be
                                  Validated


                                         August 13, 2007

                              Reference Number: 2007-40-125




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 13, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Taxpayer Service Savings Estimates for Fiscal
                             Years 2006 and 2007 Could Not Be Validated (Audit # 200640034)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) Wage and Investment (W&I) Division accurately accounted for its estimated Taxpayer
 Service cost savings and program efficiency initiatives for Fiscal Years 2006 and 2007 and
 achievements for Fiscal Year 2006. This audit was included in our Fiscal Year 2007 Annual
 Audit Plan.

 Impact on the Taxpayer
 The IRS estimated it would achieve more than $160 million in Taxpayer Service savings from
 various reengineering and improvement projects and program efficiency initiatives to support the
 decrease in funding for Taxpayer Service in Fiscal Years 2006 and 2007. Neither the estimates
 nor the achievements could be validated. When budget savings are estimated without an
 adequate analysis of the effect on the level of taxpayer service, the resulting budgets may not
 provide the resources needed to provide sufficient service. This can also affect other IRS
 operations because funds must be later shifted between programs to meet operational
 requirements.

 Synopsis
 The W&I Division is responsible for serving individual taxpayers whose main sources of income
 are wages and investment income reported by third parties. Approximately 87 percent of the
 IRS’ Taxpayer Service budget is allocated to this Division.
                                 Taxpayer Service Savings Estimates for Fiscal
                                  Years 2006 and 2007 Could Not Be Validated



To support decreases in funding for Fiscal Years 2006 and 2007, the W&I Division estimated it
would achieve approximately $122 million and $47 million in Taxpayer Service savings,
                                                                                 respectively. Figure 1 shows details of
                   Figure 1: Results of Validating the                           those estimates. For the most part, the
                        Taxpayer Service Savings
                                                                                 methodologies for calculating the
                                                                   Estimated     Taxpayer Service savings estimates for
                                              Estimated              Savings
 Fiscal Year and Initiative                    Savings              Validated    the approximately $14 million Electronic
 Fiscal Year 2006                                                                Filing Initiatives and the $8 million
 Electronic Filing                            $7,700,000          $7,437,837     Improvement Projects were documented.
 Taxpayer Service Reengineering              114,103,000          22,437,929     These savings were based on business
 Total for Fiscal Year 2006                 $121,803,000         $29,875,766     cases, and the IRS had maintained the
 Percentage Validated                                                25%         records used to build the business cases
 Fiscal Year 2007
                                                                                 and estimates. However, the savings
 Electronic Filing                            $6,760,000          $6,490,634
 Improvement Projects                           8,215,000           9,417,218
                                                                                 estimates for the approximately
 Taxpayer Service Program                                                        $114 million Taxpayer Service
 Efficiencies                                 32,200,000            3,246,367    Reengineering 1 and $32 million
 Total for Fiscal Year 2007                  $47,175,000         $19,154,219
                                                                                 Taxpayer Service Program Efficiencies
 Percentage Validated                                                 41%
 Source: IRS Fiscal Year 2006 and 2007 Congressional Justifications and Treasury
                                                                                 Initiatives were generally not supported
 Inspector General for Tax Administration analyses.                              and could not be validated.
For the savings that could not be validated, the W&I Division had not adequately documented
the methodologies used to calculate the savings. Source documentation had not been created or
maintained, or not all data provided were accurate or the most current available, and some of the
data were based on estimates and projections instead of actual data currently available. In
addition, the W&I Division Strategy and Finance Office relied on other division offices and
functions to provide the documentation.
The lack of validation happened for many reasons, including the length and complexity of the
budget process itself and not having a cost accounting system that can adequately capture costs
at the activity or program level. In addition, the various components of the savings were
calculated by different W&I Division offices and functions using different methods and rates.
Finally, the data were not subjected to a quality review process.
Most of the $122 million Taxpayer Service savings estimated for Fiscal Year 2006 were not
achieved or could not be validated. The W&I Division financial records system showed
adjustments for the almost $110 million savings estimated and allocated to the various
W&I Division financial plans. Eventually, most of the funds were internally reallocated because
legislation prohibited the IRS from taking certain actions, projects were cancelled or delayed,

1
  The Taxpayer Service Reengineering savings amount includes an allocation of $20 million for the Taxpayer
Education and Communication Realignment and the Small Business/Self-Employed Division. This amount was not
included in our review.
                                                                                                                       2
                           Taxpayer Service Savings Estimates for Fiscal
                            Years 2006 and 2007 Could Not Be Validated



and savings did not materialize. The lack of sufficient management information and financial
systems that capture activity costs hinders the W&I Division’s ability to determine whether it is
meeting its performance goals.

Recommendations
We recommended the Commissioner, W&I Division, (1) develop a thorough process for
compiling the data used for the IRS’ budget requests to help ensure the accuracy of the estimates
and to facilitate a better understanding of the impact of budget reductions on operations and
(2) evaluate the extent to which estimated savings are achieved as well as the impact on IRS
operations of savings that are not achieved, to assist in formulating future budget submissions
and allocations.

Response
IRS management agreed with both of our recommendations. They agreed many facets of the
budget estimating process can be improved and will incorporate our suggestions for
standardization and quality control into the W&I Division Strategy and Finance Office process.
Management’s complete response to the draft report is included as Appendix V.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                    3
                                       Taxpayer Service Savings Estimates for
                                 Fiscal Years 2006 and 2007 Could Not Be Validated




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Most Estimates for Fiscal Years 2006 and 2007
          Taxpayer Service Savings and Program Efficiency
          Initiatives Could Not Be Validated...............................................................Page 4
                    Recommendation 1: .................................................................. Page 13

          Estimated Fiscal Year 2006 Taxpayer Service Savings
          Were Not Achieved or Could Not Be Validated ..........................................Page 13
                    Recommendation 2:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Outcome Measure ................................................................Page 20
          Appendix V – Management’s Response to the Draft Report .......................Page 21
                      Taxpayer Service Savings Estimates for
                Fiscal Years 2006 and 2007 Could Not Be Validated




                           Abbreviations

e-file              Electronic File
FTE                 Full-Time Equivalent
IRS                 Internal Revenue Service
W&I Division;       Wage and Investment Division
Division
                                  Taxpayer Service Savings Estimates for
                            Fiscal Years 2006 and 2007 Could Not Be Validated




                                            Background

In February each year, the Internal Revenue Service (IRS) submits its budget request to Congress
to support its 5-year strategic plan. The current strategic plan guides the IRS’ operations from
October 1, 2004, through September 30, 2009, and underscores its commitment to provide
quality service to taxpayers and enforce America’s tax laws in a balanced manner. The first
theme of the strategic plan is to Improve Taxpayer Service. Figure 1 shows the IRS budget
requests for Fiscal Years 2006 and 2007 and what funds and savings were directed or attributed
to Taxpayer Service.
                          Figure 1: Taxpayer Service Budget Requests

                   Fiscal Year 2006                                     Fiscal Year 2007
     Overall Budget:                                     Overall Budget:
     The IRS requested $10.679 billion; the enacted      The IRS requested $10.591 billion; the enacted
     budget was $10.573 billion.                         budget was $10.539 billion.

     Taxpayer Service Budget:                            Taxpayer Service Budget:
     The IRS directed $3.567 billion to Taxpayer         The IRS directed $3.583 billion to Taxpayer
     Service (a 1.1 percent decrease from its Fiscal     Service (a 0.4 percent increase from its Fiscal
     Year 2005 enacted budget).                          Year 2006 enacted budget).

     Estimated Savings:                                   Estimated Savings:
     Estimated Taxpayer Service savings included         Estimated Taxpayer Service savings included the
     the following:                                      following:
     •   Taxpayer Service Reengineering –                •   Increased Individual Master File Electronic
         $134,103,000.1                                      Filing – $6,760,000.
     •   Increased Individual Master File2 Electronic    •   Improvement Projects Savings – $7,553,000.
         Filing – $7,700,000.                            •   Program Efficiencies – $32,200,000.


    Source: Fiscal Year 2006 Internal Revenue Service Congressional Justification, dated February 7, 2005;
    Internal Revenue Service Fiscal Year 2007 Congressional Budget Submission, dated February 6, 2006; and the
    Corporate Performance Budgeting office.




1
  The $134,103,000 in Taxpayer Service Reengineering savings includes an allocation of $20 million for the
Taxpayer Education and Communication Realignment and the Small Business/Self-Employed Division. This
amount was not included in our review.
2
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                           Page 1
                                 Taxpayer Service Savings Estimates for
                           Fiscal Years 2006 and 2007 Could Not Be Validated



 IRS business units and divisions are each responsible for creating and submitting their annual
 organizational budget requests to the IRS Chief Financial Officer. The Wage and Investment
 Division (hereafter referred to as the W&I Division or Division) is responsible for serving
 individual taxpayers whose main sources of income are wages and investment income reported
 by third parties. Approximately 87 percent of the IRS’ Taxpayer Service budget is allocated to
 this Division.
 During the budget cycle, which spans 2 years, budget requests move from initiation at the
 operating units and divisions to the IRS Chief Financial Officer, the Department of the Treasury,
 and the Office of Management and Budget before submission to Congress. During this time,
 negotiations take place in which budget amounts are revised because of differing priorities and
 funding levels. Figure 2 presents a simplified list of steps taken during the Fiscal Year 2006
 budget cycle.
                            Figure 2: Fiscal Year 2006 Budget Cycle

 Date                    Action
 November 2003           The W&I Division began its research and planning for the Fiscal Year 2006
                         budget.
 February 2004           The business operating divisions submitted budget initiatives to the Chief
                         Financial Officer.
 June 2004               The Commissioner submitted the IRS’ Fiscal Year 2006 budget to the
                         Department of the Treasury.
 July 2004               The Department of the Treasury reviewed the IRS’ budget submission and
                         provided feedback and recommendations.

 September 2004          The Department of the Treasury finalized its overall budget request and
                         submitted it to the President and the Office of Management and Budget.

 December 2004           The Office of Management and Budget reviewed the IRS’ budget submission
                         with the Department of the Treasury and the IRS. The Office of Management
                         and Budget advised the IRS of adjustments to its budget request.
 February 2005           The IRS submitted its revised formal budget request to Congress.

 November 2005           The budget was enacted. The IRS adjusted its budget for any differences in
                         what was submitted and enacted.
Source: IRS, Department of the Treasury, and Office of Management and Budget documents.

 From this process, the IRS determines its final operating budgets and makes adjustments to the
 related bookkeeping accounts for any differences in what was requested and enacted.
 Based upon budget guidance from the Office of Management and Budget during the Fiscal
 Year 2006 budget negotiation process, the IRS reduced its request for Taxpayer Service funding

                                                                                                      Page 2
                                 Taxpayer Service Savings Estimates for
                           Fiscal Years 2006 and 2007 Could Not Be Validated



by approximately $134 million. To help reach the $134 million savings in Taxpayer Service, the
IRS decided on a number of cost-reduction strategies, including the closure of some Taxpayer
Assistance Centers3 and the reduction of toll-free telephone operating hours.
Due to concerns raised by the National Treasury Employees Union and the National Taxpayer
Advocate over the proposed closing of several Taxpayer Assistance Centers nationwide,
Congress enacted legislation on November 30, 2005,4 restricting the IRS from reducing taxpayer
services until the Treasury Inspector General for Tax Administration had completed a study of
the proposed changes. Congress further defined a reduction of taxpayer services to include
limiting available hours of telephone taxpayer assistance on a daily, weekly, and monthly basis
to those levels in existence during October 2005.5
After reviewing the plans and supporting data, we reported that not all data used were accurate or
the most current available and some of the data were based on estimates and projections instead
of actual data currently available.6 We have also previously reported concerns that the IRS does
not have effective management information systems to calculate costs and measure program
achievements.7
This review was performed at the W&I Division Strategy and Finance office in Atlanta, Georgia,
and the Corporate Performance Budgeting office of the Chief Financial Officer in
Washington, D.C., during the period July 2006 through April 2007. Certain information needed
to validate the data was not available. These matters are discussed in further detail in the Results
of Review section. The audit was conducted in accordance with Government Auditing
Standards. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




3
  Taxpayer Assistance Centers are local IRS offices where taxpayers can obtain face-to-face assistance with tax
matters.
4
  The Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia, and
Independent Agencies Appropriations Act, Pub. L. No. 109-115, 119 Stat. 2396 (2005).
5
  Department of Defense Appropriations Act, Pub. L. No. 109-148, 119 Stat. 2680 (2005).
6
  The Taxpayer Assistance Center Closure Plan Was Based on Inaccurate Data (Reference Number 2006-40-061,
dated March 2006) and The Savings Used to Recommend Reducing Toll-Free Telephone Hours of Operation Are
Not As Significant As Projected (Reference Number 2006-40-169, dated September 21, 2006).
7
  The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured (Reference
Number 2005-40-110, dated July 2005).
                                                                                                          Page 3
                                 Taxpayer Service Savings Estimates for
                           Fiscal Years 2006 and 2007 Could Not Be Validated




                                     Results of Review

Most Estimates for Fiscal Years 2006 and 2007 Taxpayer Service
Savings and Program Efficiency Initiatives Could Not Be Validated
The IRS was, for the most part, able to document its methodologies for the Taxpayer Service
savings estimates for the approximately $14 million Electronic Filing Initiative and the
$8 million Improvement Projects. These savings were based on business cases, and the IRS had
maintained the records used to build the business cases and estimates. However, the savings
estimates for the approximately $114 million Taxpayer Service Reengineering and $32 million
Taxpayer Service Program Efficiencies were generally not supported and could not be validated.
Figure 3 provides the results of our validation of the estimated Taxpayer Service savings for
Fiscal Years 2006 and 2007.
              Figure 3: Results of Validating the Taxpayer Service Savings
                                                                                  Estimated
                                                            Estimated              Savings
               Fiscal Year and Initiative                    Savings              Validated
               Fiscal Year 2006
               Electronic Filing                             $7,700,000          $7,437,837
               Taxpayer Service Reengineering              114,103,000           22,437,929
               Total for Fiscal Year 2006                 $121,803,000          $29,875,766
               Percentage Validated                                                 25%
               Fiscal Year 2007
               Electronic Filing                             $6,760,000          $6,490,634
               Improvement Projects8                          8,215,000           9,417,218
               Taxpayer Service Program
               Efficiencies                                 32,200,000            3,246,367
               Total for Fiscal Year 2007                  $47,175,000          $19,154,219
               Percentage Validated                                                  41%
              Source: IRS Fiscal Year 2006 and 2007 Congressional Justifications and Treasury
              Inspector General for Tax Administration analyses.



8
  The Improvement Projects savings amount includes an allocation of $662,000 for the Contact Recording Project
related to Enforcement. Because it was part of the business case, we included it in our results.
                                                                                                         Page 4
                             Taxpayer Service Savings Estimates for
                       Fiscal Years 2006 and 2007 Could Not Be Validated



The four main components (Initiatives) of the Taxpayer Service savings validated are:
1. Electronic Filing for Fiscal Years 2006 and 2007 – These savings result from increased
   electronic filing and a reduction in the number of individual taxpayers’ paper returns.
   Estimated electronic file (e-file) savings are based on the projected reduction in the number
   of paper returns processed each year, offset by the cost of processing e-file returns.
2. Taxpayer Service Reengineering for Fiscal Year 2006 – These savings were to be achieved
   through a variety of reforms including closing a number of Taxpayer Assistance Centers,
   reducing the toll-free telephone hours of operation, and increasing reliance on more efficient
   telephone and Internet service options.
3. Improvement Projects for Fiscal Year 2007 – These savings are to be from operational
   improvements generated by the Contact Recording, Queuing Management System,
   Correspondence Imaging System, and End-to-End Publishing improvement projects already
   in progress. Contact Recording enables managers at toll-free telephone sites and Taxpayer
   Assistance Centers to improve the quality of taxpayer assistance on incoming and outgoing
   telephone calls/interviews. Queuing Management is an online system available at Taxpayer
   Assistance Centers to facilitate workload and resource distribution for improved workflow
   and timeliness of service. The Correspondence Imaging System will allow customer service
   representatives to work from a stored image to streamline case resolution. End-to-End
   Publishing will provide technology solutions to streamline business processes associated with
   publishing and distribution.
4. Taxpayer Service Program Efficiencies for Fiscal Year 2007 – Taxpayer Service operations
   will be improved through a variety of efforts, including the judicious distribution of workload
   and the automation of certain taxpayer assistance functions such as the centralized
   monitoring of case inventories.
The various W&I Division functions and offices provided the specific savings and efficiencies to
the Division Strategic Planning and Finance offices. However, not all the functions and offices
could provide support for their respective portions of the allocated Taxpayer Service savings.
For the savings that could not be validated, the W&I Division had not adequately documented
the methodologies used to calculate the savings. Source documentation had not been created or
maintained, or not all data provided were accurate or the most current available, and some of the
data were based on estimates and projections instead of actual data currently available. In
addition, the Division Strategy and Finance Office did not maintain the supporting data but relied
on the Division’s other offices and functions to provide it.
The lack of validation happened for many reasons, including the length and complexity of the
budget process itself and not having a cost accounting system that can adequately capture costs
at the activity or program level. In addition, the various components of the savings were


                                                                                            Page 5
                                Taxpayer Service Savings Estimates for
                          Fiscal Years 2006 and 2007 Could Not Be Validated



calculated by different W&I Division functions and offices using different methods and rates.
Finally, the data were not subjected to a quality review process.
To run and control its operations, an agency must have relevant, reliable, and timely data and
communications relating to internal as well as external events. Standards for Internal Control in
the Federal Government9 require information to be recorded and communicated to management
and others within the entity who need it and in a form and within a time period that enables them
to carry out their internal control responsibilities. In addition, the risk increases that the IRS is
using inaccurate data to support its budget request and cannot provide sound business cases for
the budget decisions that are made.

The Federal Government budget process is lengthy and complex
When the budget process begins, the budget is prepared based on the IRS’ 5-year strategic plan
and the current priorities of the IRS, the Department of the Treasury, and the President. A year
later, when the budget is submitted to the Office of Management and Budget, priorities and
expected funding levels may change. Therefore, budget submissions have to be revised based on
those changing priorities and funding levels.
IRS officials stated that much of the savings identified in the Fiscal Years 2006 and 2007
Congressional Justifications were created from the Office of Management and Budget guidance
when the IRS and the W&I Division did not receive anticipated funding. In some cases, specific
projects and initiatives were identified that were expected to produce savings during the 2 fiscal
years. When these were not sufficient to produce the necessary savings, the IRS had to identify
additional areas where it could reduce spending.
For example, the IRS reduced its request for Taxpayer Service funding by $134 million based
upon budget guidance from the Office of Management and Budget during the Fiscal Year 2006
budget negotiation process. The IRS allocated this amount among various Taxpayer Service
activities, which occur primarily in the W&I Division.
The $134 million is represented in the Congressional Justification with the following:
          IRS is working aggressively to improve productivity and achieve cost savings. Efforts
          such as expanded use of pay-for-performance incentives, legislative proposals to
          accelerate e-file growth, competitive sourcing, and reducing dependence on walk-in
          taxpayer service will save $134,103 K [thousand] in taxpayer service programs in 2006.
To reach the $134 million, the W&I Division allocated the savings to its offices and functions
and asked each to provide the information as to how it would produce the savings.
Subsequently, the offices and functions provided the methods they would use to produce the
savings.


9
    GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                               Page 6
                              Taxpayer Service Savings Estimates for
                        Fiscal Years 2006 and 2007 Could Not Be Validated



The functions and offices had little time to determine how they would save money and operate
with reduced funding. The IRS generally could document the methodologies it used to produce
the saving estimates for established projects and initiatives. On the other hand, when there were
no established projects or initiatives, the IRS was unable to provide sufficient support to validate
the savings estimates, even though the savings appeared to be targeted and/or specific.
W&I Division officials explained that little effort is made to document and support budget
reductions. They believe it is not an efficient use of financial program resources and from a
program perspective it is better to focus on effective budget execution. Notwithstanding, we
believe the IRS’ current process is not efficient. An organized method of compiling accurate
data is needed, given the significance of its operations and the amount of resources needed to
prepare and execute its budget. Documenting and supporting its savings estimates during the
budget formulation process would help the IRS make adjustments to its budget requests because
the methodologies and estimated figures would be readily available.

Documents could not be located or had not been maintained
The IRS was able to demonstrate how the Taxpayer Service savings were calculated and what
specific amounts made up each of the four components. However, it could provide sufficient
documentation for us to validate over $22 million of the $114 million of Fiscal Year 2006
Taxpayer Service Reengineering savings and over $3 million of the $32 million of Fiscal
Year 2007 Taxpayer Service Program Efficiencies savings. Figure 4 provides a breakdown of
the amounts that made up each of the four components: Electronic Filing, Taxpayer Service
Reengineering, Improvement Projects, and Taxpayer Service Program Efficiencies.




                                                                                              Page 7
                                 Taxpayer Service Savings Estimates for
                           Fiscal Years 2006 and 2007 Could Not Be Validated



                     Figure 4: Components of the Taxpayer Service Savings

                                              Estimated                                                Estimated
                               Estimated       Savings                                  Estimated       Savings
 Fiscal Year 2006               Savings       Validated       Fiscal Year 2007           Savings       Validated

 Electronic Filing              $7,700,000     $7,437,837     Electronic Filing          $6,760,000    $6,490,634

 Taxpayer Service Reengineering                               Improvement Projects
 Accounts Management Paper
 Inventory Reduction           16,000,000                 0   Contact Recording          $4,716,000    $6,341,657
 Discontinue the TeleFile                                     Correspondence Imaging
 Program                        5,000,000                 0   System                        526,000       689,929
 Internet Employee                                            End-to-End Publishing
 Identification Number          5,103,000       4,487,157     Contracts                     158,000             0
 Media and Publications                                       Queuing Management
 Printing and Postage          12,000,000                 0   System                       2,815,000     2,385,632
 Service Center Recognition/
 Image Processing System        6,000,000       4,856,682            Total Projects      $8,215,000    $9,417,218
 SPEC Publications              1,000,000       1,094,090
 Submission Processing
 Productivity Gains            12,000,000      12,000,000     Taxpayer Service Program Efficiencies
 Taxpayer Assistance Center                                   Individual Taxpayer
 Closures                      44,000,000                 0   Identification Number     $3,100,000     $3,246,367
 Toll-Free Telephone Hours
 Reduction                     13,000,000                 0   Span of Control              13,700,000           0
                                                              Taxpayer Service Share of
                                                              Telecom/Notice Issuance      15,400,000           0
     Total Reengineering       $114,103,000   $22,437,929          Total Efficiencies    $32,200,000  $3,246,367
 Total Amounts                                                Total Amounts
 for Fiscal Year 2006          $121,803,000   $29,875,766     for Fiscal Year 2007       $47,175,000 $19,154,219
 Percentage for Fiscal Year 2006                25%           Percentage for Fiscal Year 2007            41%

Source: IRS Fiscal Year 2006 and 2007 Congressional Justifications and Treasury Inspector General for Tax
Administration analyses. SPEC=Stakeholder Partnerships, Education, and Communication.

Of the $22 million Fiscal Year 2006 Taxpayer Service Reengineering savings estimates that
were validated:
   •    The IRS provided business cases to support the savings estimates for the $5 million
        Internet Employee Identification Number and the $6 million Service Center
        Recognition/Image Processing System.
   •    The W&I Division provided support to show savings identified in the production product
        lines, program travel, and contracts for the $1 million estimated Stakeholder Partnerships,
        Education, and Communication Publications savings.




                                                                                                            Page 8
                                   Taxpayer Service Savings Estimates for
                             Fiscal Years 2006 and 2007 Could Not Be Validated



     •   W&I Division officials stated $12 million of the Taxpayer Service savings was allocated
         to the Submission Processing function when the Director, Submission Processing, stated
         the savings would be accomplished through productivity gains. No specific information
         was provided on how these efficiencies would achieve the $12 million savings.
         However, a journal entry showed the function’s reduced funding and documents were
         provided to show most of the savings were achieved.
The remaining Fiscal Year 2006 Taxpayer Service Reengineering savings estimates, for the most
part, could not be validated.
     •   Accounts Management Paper Inventory Reduction – $16 million estimated, $0 validated.
         IRS officials stated documentation did not exist.
     •   Discontinue the TeleFile Program10 – $5 million estimated, $0 validated.11 The IRS could
         not provide documentation to show how it arrived at the estimated $5 million in annual
         cost savings it hoped to realize as a result of eliminating the TeleFile Program. Without
         this documentation, we cannot be certain that all applicable factors were properly
         considered when computing the estimate. For example, the IRS stated it had considered
         the cost it would incur to mail paper income tax packages once the TeleFile Program
         ended. However, the IRS could not provide the cost figure nor the method used to
         compute that figure.
     •   Media and Publications Printing and Postage – $12 million estimated, $0 validated.12
         Specific print products were identified for reduction, along with the resulting decrease in
         postage costs. No documentation was provided to support these estimates.
The IRS was able to provide support for more than $9 million in estimated savings for Fiscal
Year 2007 Improvement Projects but could not provide information or support for most of the
$32 million of Fiscal Year 2007 Taxpayer Service Program Efficiencies. A business case was
provided that supported about $3 million in estimated savings for the Individual Taxpayer
Identification Number improvement project. The remainder consisted of the following:




10
   The TeleFile Program allowed taxpayers meeting certain criteria to file their tax returns using the keypads on their
telephones.
11
   Eliminating TeleFile Increased the Cost and Burden of Filing a Tax Return for Many Taxpayers (Reference
Number 2007-40-116, dated July 20, 2007).
12
   While documents supporting the Congressional Justification stated $12 million would be saved in this function,
IRS officials stated the amount was initially calculated at $12.5 million based on $11 million for printing and
postage costs and $1.5 million related to savings resulting from the National Distribution Center contract.
                                                                                                               Page 9
                                 Taxpayer Service Savings Estimates for
                           Fiscal Years 2006 and 2007 Could Not Be Validated



     •   Span of Control – Almost $14 million in planned savings estimates was to be achieved
         through reducing management span of control across several operating divisions and
         support functions on a percentage basis.
     •   Taxpayer Service Share of Telecommunications Costs and Notice Issuance – More than
         $15 million related to savings was to be shared across the W&I Division.
The Corporate Performance Budgeting office provided no documentation supporting the
calculation for the span of control or telecommunications costs. Corporate Performance
Budgeting office officials stated the savings of $32 million were generally budget adjustments
allocated to the various W&I Division functions. They stated they were involved in preparing
the Fiscal Year 2008 budget submission and did not have the resources to respond to requests
for documents and assistance in validating historical budget figures.

Data used were not always accurate, consistent, or current
While we generally validated the estimated savings related to the improvement projects by
accepting many of the IRS assumptions used to calculate the estimated savings, the
W&I Division does not have a consistent methodology for calculating project savings. For
example, calculations for Full-Time Equivalents (FTE)13 to dollars and number of FTEs saved
were used inconsistently.
Project savings were generally calculated by identifying the number of FTEs to be saved and
used to calculate the dollar savings. However, the methods used to calculate the FTE dollars
were inconsistent. For example, dollar amounts were
calculated based on (1) the General Schedule average         The methods used to calculate
pay grade, (2) an average labor cost per hour per                the FTE dollars were
processing function, or (3) use of a unit cost rate macro            inconsistent.
provided by the Office of the Chief Financial Officer.
Labor rates were also calculated differently by the various program offices. One project used a
flat $45,000 salary rate based on the project manager’s knowledge of the “typical” employee
working on the project. Another project calculated the percentage of indirect hours to direct
hours and applied the percentage to the total direct hours used to calculate the volume of FTEs
saved.
Other inconsistencies involved the estimates of the number of FTEs that could be saved. The
business cases cited one estimate, the estimates were reduced for the budget, and then the actual
amount saved was a different amount.



13
  An FTE is a measure of labor hours. One FTE is equal to 8 hours multiplied by the number of compensable days
in a particular fiscal year.
                                                                                                      Page 10
                                Taxpayer Service Savings Estimates for
                          Fiscal Years 2006 and 2007 Could Not Be Validated



     •   The savings calculations for 1 project identified 227 FTEs could be saved after the
         project was implemented, but the business case and budget savings only included
         111 FTEs saved.

     •   Another project’s business case calculations identified 39 FTEs could be saved but
         reported only 35 FTEs saved based on an accounting error in the Fiscal Year 2003
         budget.
Without fully costing out the labor associated with an FTE on a project or artificially reducing
the FTEs reported, the project’s costs and savings are inaccurate.
In addition, we reported in January 2007 that IRS business cases used to manage and fund
specific information technology investments were inaccurate and unreliable.14 IRS business case
inaccuracies distort the true life cycle costs of information technology investments and present a
false depiction of the IRS’ information technology portfolio, resulting in potential waste and
mismanagement of taxpayer dollars. Senior IRS executives and officials from the Department of
the Treasury and Office of Management and Budget still cannot rely on the data in IRS business
cases to manage and fund IRS projects.
Separate audits were conducted to validate the Toll-Free Telephone Hours Reduction and
Taxpayer Assistance Center Closures:
     •   Toll-Free Telephone Hours Reduction15 – The IRS used the most current data available at
         the time the original analysis was performed and estimated savings of approximately
         $18 million for Fiscal Year 2004. Using Fiscal Year 2005 data, the most current
         complete data available at the time of the review, the savings potential would be
         considerably less, approximately $914,000 or 20 FTEs. In addition, there were minor
         errors in the Fiscal Year 2004 calculations, and the estimated savings were not
         recalculated when Fiscal Year 2005 data became available. The IRS could not provide
         adequate documentation to support its decision to reduce hours. Therefore, we could not
         duplicate or validate many of the assumptions used. In addition, some of the
         documentation provided contained minor errors.
     •   Taxpayer Assistance Center Closures16 – Testing identified that not all data used were
         accurate or the most current available, and some of the data were based on estimates and
         projections instead of actual data currently available. Estimates of facilities costs and
         employee costs were used rather than actual data. The estimates caused the final

14
   Business Cases for Information Technology Projects Remain Inaccurate (Reference Number 2007-20-024,
dated January 25, 2007).
15
   The Savings Used to Recommend Reducing Toll-Free Telephone Hours of Operation Are Not As Significant As
Projected (Reference Number 2006-40-169, dated September 21, 2006).
16
   The Taxpayer Assistance Center Closure Plan Was Based on Inaccurate Data (Reference Number 2006-40-061,
dated March 22, 2006).
                                                                                                   Page 11
                              Taxpayer Service Savings Estimates for
                        Fiscal Years 2006 and 2007 Could Not Be Validated



       projected savings to be inaccurate. Data discrepancies ultimately affected the ranking
       and overall selection of Taxpayer Assistance Centers for closure. When we reran the
       Model for the 60 selected Taxpayer Assistance Centers, the overall scores for each of the
       60 Taxpayer Assistance Centers changed.
In addition, source documents allowed us to recalculate and validate the e-file savings estimated
at $7.7 million for Fiscal Year 2006 and $6.76 million for Fiscal Year 2007. While we generally
were able to validate the estimated savings by tracing the amounts used to source documentation,
eliminating the TeleFile Program reduced the actual savings achieved by e-file because almost
one-half of the taxpayers who could no longer use TeleFile to submit their tax returns reverted to
filing their tax returns on paper. This reduced the e-file volumes and increased the printing and
postage required for preparing tax return forms as well as increased the amount of FTEs required
to process the additional paper tax returns that were filed. Even though the IRS was aware that a
percentage of taxpayers who had previously participated in the TeleFile Program would revert to
filing their tax returns on paper, these costs were not offset against the estimated savings used for
budgetary purposes.
The W&I Division Strategy and Finance Office has recognized the difference in cost estimation
methods applied by the various functions. It is developing procedures for all improvement
project business cases to ensure consistency.

Data are not subjected to a quality review before they are used to support the
budget
Data are not reviewed or validated as the budget estimates are passed up from the various
W&I Division functions and offices to the Strategy and Finance Office. IRS officials stated
these numbers are just projections and estimates; therefore, validation is not required or
necessary. They also stated it is not an efficient use of financial program resources to document
estimated savings when money is not received.
Nevertheless, without review or validation, there is no assurance the IRS is using accurate data to
support its annual budget request. The inability to document or explain how amounts are derived
as a part of the budget process makes it difficult for the IRS to identify how these savings affect
specific areas of Taxpayer Service. It also makes it more difficult for the IRS to provide a
business case to oversight bodies to demonstrate why adjustments can or cannot be made.
Finally, if budget estimates are not consistently and appropriately solicited, received, reviewed,
and reported, the resulting budgets may not provide the resources needed to achieve
organizational goals. As a result, shortages and overages can occur, causing the need to shift
funds between programs to meet operational requirements.




                                                                                             Page 12
                             Taxpayer Service Savings Estimates for
                       Fiscal Years 2006 and 2007 Could Not Be Validated



Recommendation
Recommendation 1: The Commissioner, W&I Division, should develop a thorough process
for compiling the data used for the IRS’ budget requests to help ensure the accuracy of the
estimates and to facilitate a better understanding of the impact of budget reductions on
operations.
       Management’s Response: IRS management agreed with this recommendation and
       will standardize the process for estimating and documenting budgetary savings estimates
       to include the implementation of a quality review component. A team consisting of
       representatives from W&I Division Headquarters Program and Finance staffs will be
       established to review budget estimates to assess accuracy, assure consistently applied
       estimate methodologies, and provide information on the impact of budget reductions on
       operations.

Estimated Fiscal Year 2006 Taxpayer Service Savings Were Not
Achieved or Could Not Be Validated
Most of the approximately $122 million Taxpayer Service savings estimated for Fiscal
Year 2006 were not achieved or could not be validated. Figure 5 shows the results of validating
Fiscal Year 2006 achieved savings.




                                                                                         Page 13
                               Taxpayer Service Savings Estimates for
                         Fiscal Years 2006 and 2007 Could Not Be Validated




                 Figure 5: Results of Validating IRS Achieved Savings
                                                                                         Achieved
                                                                        Estimated
       Fiscal Year 2006                                                                  Savings
                                                                         Savings
                                                                                         Validated
       Electronic Filing                                                 $7,700,000      $4,612,301
       Taxpayer Service Reengineering
         Accounts Management Paper Inventory Reduction                  $16,000,000                $0
         Discontinue the TeleFile Program                                 5,000,000                 0
         Internet Employee Identification Number                          5,103,000        5,215,328
         Media and Publications Printing and Postage                     12,000,000        6,857,714
         Service Center Recognition/Image Processing System               6,000,000                 0
         Stakeholder Partnerships, Education, and
                                                                          1,000,000          242,045
         Communication Publications
         Submission Processing Productivity Gains                        12,000,000                 0
         Taxpayer Assistance Center Closures                             44,000,000                 0
         Toll-Free Telephone Hours Reduction                             13,000,000                 0
                       Total Reengineering                            $114,103,000      $12,315,087
       Total Amounts for Fiscal Year 2006                             $121,803,000      $16,927,388
      Source: IRS Fiscal Year 2006 Congressional Justifications and Treasury Inspector General for Tax
      Administration analyses.

The W&I Division financial records system showed adjustments for the almost $110 million
savings estimated and allocated to the various W&I Division financial plans. Eventually, most
of the funds were internally reallocated because legislation prohibited the IRS from taking
certain actions, projects were cancelled or delayed, and savings did not materialize.
By the time the budget is enacted 3 years after the first steps in the budget cycle are taken,
adjustments, funding levels, and late legislation affect the final budget and budget execution.
Expected or estimated expenses may not have occurred while unexpected expenses may have
occurred. The estimated savings may or may not occur because improvement projects may have
encountered delays or initiatives may have been postponed. In addition, budgeted dollars for a
particular function or for a particular improvement project may be directed elsewhere to fund
higher priority shortfalls.
For example, the IRS estimated it would save $44 million by closing a number of Taxpayer
Assistance Centers and $13 million by reducing toll-free telephone hours of operation.
Legislation prevented both of these actions. When we asked how the W&I Division dealt with
this significant portion of unrealized savings, officials stated the funds were internally


                                                                                                         Page 14
                                 Taxpayer Service Savings Estimates for
                           Fiscal Years 2006 and 2007 Could Not Be Validated



reallocated to W&I Division budget accounts. However, IRS officials could not explain which
programs or services in the Division or other business operating units absorbed the losses.
The IRS does not have a financial system designed to capture activity costs at the functional
level. In addition, we have reported the IRS does not have effective management information
systems and have identified inaccuracies used to estimate cost savings.17 The Government
Performance and Results Act of 1993 directs Federal Government agencies to focus on their
missions and goals, how to achieve them, and how to improve their structural organizations and
business processes.18 Nonetheless, without an effective process for determining how its
organizational structures or business processes can be improved to produce the estimated
savings, the IRS risks having an adverse impact on operations, especially if funds must be later
reprogrammed to offset unexpected shortfalls because the estimated savings were not achieved.

Recommendation
Recommendation 2: To assist in formulating future budget submissions and allocations, the
Commissioner, W&I Division, should evaluate the extent to which estimated savings are
achieved as well as the impact on IRS operations of savings that are not achieved.
        Management’s Response: IRS management agreed with this recommendation. The
        Chief Financial Officer is developing an IRS-wide process to document the achievement
        of savings identified in the Congressional Justification.




17
   The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured (Reference Number
2005-40-110, dated July 2005); The Taxpayer Assistance Center Closure Plan Was Based on Inaccurate Data
(Reference Number 2006-40-061, dated March 2006); and The Savings Used to Recommend Reducing Toll-Free
Telephone Hours of Operation Are Not As Significant As Projected (Reference Number 2006-40-169, dated
September 21, 2006).
18
   Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                                                                                                        Page 15
                             Taxpayer Service Savings Estimates for
                       Fiscal Years 2006 and 2007 Could Not Be Validated




                                                                                   Appendix I


        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS W&I Division accurately accounted for
its estimated Taxpayer Service cost savings and program efficiency initiatives for Fiscal
Years 2006 and 2007 and achievements for Fiscal Year 2006. Specifically, we validated the
methodologies and calculations used to develop the savings and initiatives. To accomplish our
objective, we:
I.     Determined the budget submission process used by the Associate Chief Financial Officer
       for Corporate Performance Budgeting to identify and calculate the cost savings and
       program efficiency initiatives.
       A. Interviewed management in the Associate Chief Financial Officer for Corporate
          Performance Budgeting office to determine their roles and responsibilities in the
          process of identifying and developing the cost savings and program efficiency
          initiatives.
       B. Obtained available documentation and data related to the development of the cost
          savings and program efficiency initiatives for Fiscal Years 2006 and 2007.
       C. Determined how budget formulation adjustments are addressed based on the
          Department of the Treasury, Office of Management and Budget, and Congressional
          funding level changes.
II.    Determined the process used by the W&I Division Strategy and Finance Office to
       identify and calculate the Taxpayer Service cost savings and program efficiency
       initiatives.
       A. Interviewed Division Strategy and Finance Office management to determine their
          roles and responsibilities in the process of identifying and developing the cost savings
          and program efficiency initiatives.
       B. Interviewed Division operating unit analysts to determine the methodologies and
          calculations used to estimate cost savings and program efficiency initiatives.
       C. Obtained all available documentation and data related to the development of the cost
          savings and program efficiency initiatives for Fiscal Years 2006 and 2007.
       D. Determined whether cost savings calculations were verified or validated by a third
          party to ensure accuracy.

                                                                                          Page 16
                            Taxpayer Service Savings Estimates for
                      Fiscal Years 2006 and 2007 Could Not Be Validated



       E. Evaluated methodologies and assumptions made to calculate the cost savings and
          program efficiency initiatives.
III.   Determined whether the W&I Division achieved planned Fiscal Year 2006 Taxpayer
       Service cost savings and program efficiency initiatives.
       A. Interviewed Division management to determine whether cost savings had been
          achieved and, if not, why.
       B. Determined the process used by the Division to calculate Fiscal Year 2006 cost
          savings and program efficiency initiatives achieved.
       C. Obtained documentation used to calculate achieved cost savings and program
          efficiency initiatives and to verify the accuracy of the calculations.
       D. Determined the impact of Division estimated savings that were not achieved and
          where the savings were actually made.




                                                                                       Page 17
                           Taxpayer Service Savings Estimates for
                     Fiscal Years 2006 and 2007 Could Not Be Validated



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Lynn Faulkner, Lead Auditor
Jack Forbus, Senior Auditor
Tracy Harper, Senior Auditor
Jean Bell, Auditor
Nelva Usher, Auditor




                                                                                   Page 18
                            Taxpayer Service Savings Estimates for
                      Fiscal Years 2006 and 2007 Could Not Be Validated



                                                                           Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Deputy Commissioner, Wage and Investment Division SE:W
Associate Chief Financial Officer for Corporate Performance Budgeting OS:CFO:CPB
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Financial Officer for Corporate Performance Budgeting OS:CFO:CPB
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                    Page 19
                              Taxpayer Service Savings Estimates for
                        Fiscal Years 2006 and 2007 Could Not Be Validated



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; $91.9 million in Fiscal Year 2006 and $28 million in
    Fiscal Year 2007 (see page 4).

Methodology Used to Measure the Reported Benefit:
The IRS submitted to Congress a Taxpayer Service savings of $121.8 million for Fiscal
Year 2006 and $47.2 million for Fiscal Year 2007. Most of the actual savings were not achieved
or could not be validated. Of the Fiscal Year 2006 $121.8 million savings, $29.9 million could
be validated resulting in $91.9 million in unachieved or unverifiable savings. Of the Fiscal
Year 2007 $47.2 million savings, $19.2 million could be validated resulting in $28 million in
unverifiable savings.




                                                                                           Page 20
             Taxpayer Service Savings Estimates for
       Fiscal Years 2006 and 2007 Could Not Be Validated



                                                  Appendix V

Management’s Response to the Draft Report




                                                           Page 21
      Taxpayer Service Savings Estimates for
Fiscal Years 2006 and 2007 Could Not Be Validated




                                                    Page 22
